GR-80-98-022
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Domestic Violence Enhanced Response Team
Project Expansion Administered by the Colorado Springs Police Department
Grant No. 97-WE-VX-0002
 
GR-80-98-022
June 26, 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of the Domestic Violence Enhanced Response Team Project Expansion, Grant
No. 97-WE-VX-0002, administered by the Colorado Springs Police Department (CSPD), for the
period of February 1, 1997, through March 31, 1998. The $515,278 grant, awarded by the
Office of Justice Programs (OJP), is effective from February 1, 1997, through July 31,
1998.
During our review of inventory, we were unable to physically verify two Vehicular Radio
Modems (VRMs) that were purchased with grant funds. As a result, we are questioning
$6,432. In addition, we found the following weaknesses with regard to meeting grant
conditions: 


The Colorado Springs Police Department did not submit all required Categorical
    Assistance Progress Reports timely.


Timesheets for victim advocates employed at the Center for the Prevention of Domestic
    Violence (the Center) were not always signed by a direct supervisor before the Center
    Director approved the time and processed payroll.

These weaknesses are discussed in the Findings and Recommendations section of this
report. Our audit scope and methodology are described in Appendix I.
#####